No. 19-518
In the Supreme Court of the Anited States

 

COLORADO DEPARTMENT OF STATE,
Petitioner,
v.
MICHEAL BACA, POLLY BACA, AND ROBERT NEMANICH,

Respondents.

 

CERTIFICATE OF COMPLIANCE

 

I hereby certify that I am a member in good standing of the bar of this Court
and that the Brief of Amicus Curiae Colorado Republican Committee in Support of
Petitioner contains 6,140 words and complies with the word limitation established
by Rule 33.1(g)(xii) of the Rules of this Court.

Dated: April 8, 2020

 
